HHS/OIG-Audit--"Review of the Substance Abuse Prevention and Treatment Block Grant Program Administered by the Minnesota Department of Human Services, (A-05-97-00037)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of the Substance Abuse Prevention and Treatment Block Grant Program
Administered by the Minnesota Department of Human Services (A-05-97-00037)
August 20, 1997
Complete Text of Report is available in PDF format
(51 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our review of the Substance Abuse
Prevention and Treatment Block Grant (SAPT) programs administered by the Minnesota
Department of Human Services, Chemical Dependency Division (State agency). The
grant funds were awarded to the State for planning, implementing, and evaluating
alcohol and drug abuse prevention, treatment, and rehabilitation activities.
The objective of our review was to determine the adequacy of the State agency's
administration of its block grant.
Generally, the State agency was effectively administering its grant. However,
we found that the State agency did not always require its grantee to establish
program goals designed to provide a basis for measurable outcomes. We also found
that the State agency's peer review process did not meet the requirements of
the Public Health Services Act (Act) which requires independent peer reviews
of all substance abuse treatment providers. Under current practices, the majority
of providers are not subject to peer review and that the reviews incorporate
all of the required items.